■ ,

J

. A -

~ 1

O

0

N.21O
Sit tije

Supreme Court ot tfie ®niteb States
Fenyang Stewart,
Petitioner
v.
Andre Iancu and Wilbur Ross, Jr.,
Respondents

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit
PETITION FOR A WRIT OF CERTIORARI

Fenyang A. Stewart
Petitioner, Pro Se
5834C N. Kings Hwy
#4221
Alexandria, VA 22303
(757) 506-4579
fstewart2@gmail.com

May 25, 2021
RECEIVED
m 2 7 2021

I

— t

i

QUESTIONS PRESENTED
1.
Should disability-related interference claims brought pursuant to 42 U.S.C. §
12203(b) be analyzed as retaliation claims susceptible to a burden-shifting, but-for
analysis, or should they be analyzed under a broader framework according to the
original intent of the statutory text?
2.

Is the legal standard of review of a Final Decisions of the Merit Systems
Protection Board upholding the removal of a Federal Employee, based on an initial
decisions that were decided on the papers without a hearing, de novo review, or the
“arbitrary, capricious, abuse of discretion, or otherwise not in accordance with law”
standard of review?
3.

Is a district court’s failure to grant a plaintiff discovery on discrimination
claims subject to de novo review brought after a final decision from the Merit
Systems Protections Board, prior to ruling on a summary judgment motion, a
violation of the Fifth Amendment’s guarantee of due process and the property right
of continued Federal employment?
4.
Is a transfer of a Federal employee to a prior identified supervisor who is not a
trigger of said employee’s Post-Traumatic Stress Disorder a reasonable
accommodation under the Rehabilitation Act?

)

- /

ii

LIST OF PARTIES
The Petitioner appears in the caption of the case on the cover page as Fenyang
Stewart.
The Respondents appear as Wilbur Ross, Jr., and Andre Iancu, sued in their official
capacities as Secretaiy of Commerce, and the Director of the United States Patent & Trademark
Office, respectively.

1

-<

I
1

iii

TABLE OF CONTENTS

QUESTIONS PRESENTED..........................
LIST OF PARTIES........................................
TABLE OF CONTENTS................................
TABLE OF AUTHORITIES..........................
PETITION FOR A WRIT OF CERTIORARI
OPINIONS BELOW......................................
JURISDICTION..............................................
RELEVANT STATUTORY PROVISIONS....
STATEMENT OF THE CASE.......................
REASONS FOR GRANTING THE Petition..

n
in

,v
.1
1
1
1
5
6

I.
The Fourth Circuit’s adoption of the District Court’s ruling that interference claims
brought under the Rehabilitation Act are to be analyzed as retaliation claims using the
but-for standard and the McDonnell Douglas burden-shifting legal framework perpetuates
an irreconcilable conflict in intracircuit law, where only the 1st and 4th Circuits treat
interference claims as retaliation claims, but where the majority of the other circuits (the
3rd, 7th, 9th, and D.C. Circuits) agree that Congress intended to provide broad coverage
for interference claims and that they should not be analyzed under the more narrow
retaliation legal framework.
6
II. Initial MSPB administrative decisions that are based upon the written submissions and
were made without a hearing and become final due to a petitioner wishing to avoid the
years long backlog due to lack of a quorum by seeking review in district court, should be
subject to de novo review by the district court
,23

III. The Appellate Court’s affirmance of the district court’s failure to grant Petitioner
discovery on discrimination claims subject to de novo review brought after a final decision
from the Merit Systems Protections Board, prior to ruling on a summary judgment
motionby the respondents, violated his Fifth Amendment guarantee of due process and the
right of continued Federal employment
,32

:1

I

iv

IV. The lower court’s affirmance of the District Court’s and the MSPB’s reliance on
outdated EEOC guidance from 2002 that a transfer of a Federal employee to a new
supervisor is not a form of reasonable accommodation affects the rights of all employees
with psychiatric disabilities and is a violation of the Rehabilitation Act and their Fifth
Amendment property right of continued Federal employments absent disability
discrimination.
34
IV.
V.

CONCLUSION
APPENDIX A

39
40

VI.

APPENDIX B

42

VII.

APPENDIX C

78

VIII. APPENDIX D

79

' I
• I

V

TABLE OF AUTHORITIES
Cases
Kerrigan v. Bd. ofEduc. Of Carroll Ctv., at 5. (D. Md. July 28, 2015)............................... .

15

Evans v. Int'l Paper Co., 936 F.3d 183,195 (4th Cir. 2019).................................................

15

Stewart v. Ross, l:18-cv-1369 (E.D. Va. Apr. 17, 2020)......................................................

16

Lovejoy-Wilson v. NOCO Motor Fuel, Inc., 263 F.3d 208,223 (2d Cir. 2001)....................

16

McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802 (1973)...........................................

17

Menoken v. DhiUon, 975 F.3d 1,9 (D.C. Cir., 2020)............................................................

18

RWInc. v. Andrews, 534 U.S. 19, 31,122 S.CL 441,151 L.Ed.2d 339 (2001)....................

18
.21
.21
.21

Frakes v. Peoria Sch. Dist. No. 150, 872 F.3d 545, 550-51 (7th Cir. 2017)........................
Brown v. City of Tucson, 336 F.3d 1181,1191 (9th Cir. 2003).............................................
Bloch v. Frischholz, 587 8 F.3d 771, 783 (7th Cir. 2009) (en banc).....................................
Fogleman v. Mercy Hosp., Inc., 283 F.3d 561, 570 (3d Cir. 2002).......................................
Mondzelewski v. Pathmark Stores, Inc. 162 F.3d 778, 789 (3d Cir.1998)............................
Kenrich Petrochemicals, Inc. v. NLRB, 907 F.2d 400 (3d Cir.1990)....................................
Tasty Baking Co. v. NLRB, 254 F.3d 114,127-28 (D.C.Qr.2001)........................................
NLRB v. Advertisers Mfg. Co., 823 F.2d 1086,1088-89 (7th Cir. 1987)..............................
McKennon v. Nashville Banner Pub'g Co., 513 U.S. 352, 357, (1995)................................
Champagne v. Servistar, 138 F.3d 7 (1st Cir. 1998).............................................................
Soileau v. Guilford ofMaine, 105 F.3d 12,13 (1st Cir.1997)...............................................
Equal Employment Opportunity Comm'n v. Amego, Inc., 110 F.3d 135,141 (1st Cir.1997).
Luther v. Gutierrez, 618 F. Supp. 2d 483, 494-95 (E.D. Va. 2009).......................................

.22
.22
.22
,23
,23
.23
,24
24
25
,33

Marbury v. Madison, 5 U.S. 137,177 (1803).......................................................................

,34

Plaut v. Spendthrift Farm, Inc., 514 U.S. 211, 218-19 (1995)..............................................

.35

Stewart v. Iancu, 912 F.3d 693, 700 (4th Cir. 2019).............................................................

,35

Statutes
Amendment V of the U.S. Constitution

.10, passim

42 U.S.C. S 12203

11, passim

5 U.S.C. S 554

12, passim

5 U.S.C. S 557

12, passim

29 U.S.C. S 791 ffl.

14

42 U.S.C. 12111 etseq

14

!

1
5

vi

42 U.S.C. 12201-12204.12210

14

42 U.S.C. S 12203fhY

.16, passim

42 U.S.C. 12203fal....
42 U.S.C. § 3617
9 U.S.C. S 1581aY1Y

20, passim

42 U.S.C. S 12111Y8Y

.27

29 U.S.C. § 791ffi....

29

5 U.S.C. S 7703

32

,22
23

Other Authorities
EEOC. Enforcement Guidance on Retaliation and Related Issues. No. 915.004 (August 25,2016)
.30

Merit Systems Protection Board. Case Management System Pending PFR Data As of01/07/2021
.344

1

PETITION FOR A WRIT OF CERTIORARI
Fenyang Stewart, pro se, respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of Appeals for the Fourth
Circuit.
OPINIONS BELOW
The Fourth circuit's opinion which affirmed the district court's rulings
granting the Respondents' joint partial motion to dismiss and motion for
partial summary judgment (App. A) is unreported. The district court's order
granting the respondents' joint partial motion to dismiss and motion for
partial summary judgment (App. B-l) is unreported. The Fourth Circuit’s
order denying rehearing and rehearing en banc (App. C) is unreported.
JURISDICTION
Mr. Stewart’s timely petition for rehearing en banc was denied on
March 22, 2021. This Court’s jurisdiction is invoked under 28 U.S.C. §1275,
having timely filed this petition for a writ of certiorari within ninety days of
the Fourth Circuit’s judgment.
Constitutional Provisions Involved
Amendment V of the U.S. Constitution provides as follows:
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any

2

criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use,
without just compensation.enforce contracts, to sue, be
parties, give evidence, and to the full and equal benefit of
all laws and proceedings for the security of persons and
property as is enjoyed by white citizens, and shall be
subject to like punishment, pains, penalties, taxes,
licenses, and exactions of every kind, and to no other
Statutes Involved
42 U.S.C. § 12203 states as follows;
Prohibition against retaliation and coercion
(a) Retaliation
No person shall discriminate against any individual
because such individual has opposed any act or practice
made unlawful by this chapter or because such individual
made a charge, testified, assisted, or participated in any
manner in an investigation, proceeding, or hearing under
this chapter.
(b) Interference, coercion, or intimidation
It shall be unlawful to coerce, intimidate, threaten, or
interfere with any individual in the exercise or enjoyment
of, or on account of his or her having exercised or enjoyed,
or on account of his or her having aided or encouraged any
other individual in the exercise or enjoyment of, any right
granted or protected by this chapter.
(c) Remedies and procedures
The remedies and procedures available under sections
12117, 12133, and 12188 of this title shall be available to
aggrieved persons for violations of subsections (a) and (b),

■%

3

1

with respect to subchapter I, subchapter II and
subchapter III, respectively.
5 U.S.C. § 554 states in part:
(a)
This section applies, according to the provisions
thereof, in every case of adjudication required by statute
to be determined on the record after opportunity for an
agency hearing, except to the extent that there is
involved—
(1)
a matter subject to a subsequent trial of the law
and the facts de novo in a court...
5 U.S.C. § 557 states in part:
This section applies, according to the provisions
(a)
thereof, when a hearing is required to be conducted in
accordance with section 556 of this title.
When the agency did not preside at the reception of
(b)
the evidence, the presiding employee or, in cases not
subject to section 554(d) of this title, an employee
qualified to preside at hearings pursuant to section 556 of
this title, shall initially decide the case unless the agency
requires, either in specific cases or by general rule, the
entire record to be certified to it for decision. When the
presiding employee makes an initial decision, that
decision then becomes the decision of the agency without
further proceedings unless there is an appeal to, or review
on motion of, the agency within time provided by rule. On
appeal from or review of the initial decision, the agency
has all the powers which it would have in making the
initial decision except as it may limit the issues on notice
or by rule. When the agency makes the decision without
having presided at the reception of the evidence, the

~*l

4

\

presiding employee or an employee qualified to preside at
hearings pursuant to section 556 of this title shall first
recommend a decision, except that in rule mating or
determining applications for initial licenses—
(1)
instead thereof the agency may issue a tentative
decision or one of its responsible employees may
recommend a decision; ox
this procedure may be omitted in a case in which
the agency finds on the record that due and timely
execution of its functions imperatively and unavoidably so
requires.
(2)

(c) Before a recommended, initial, or tentative decision, or
a decision on agency review of the decision of subordinate
employees, the parties are entitled to a reasonable
opportunity to submit for the consideration of the
employees participating in the decisions—
(1)

proposed findings and conclusions; or

(2)
exceptions to the decisions or recommended
decisions of subordinate employees or to tentative agency
decisions; and
(3)
supporting reasons for the exceptions or proposed
findings or conclusions.
The record shall show the ruling on each finding,
conclusion, or exception presented. All decisions,
including initial, recommended, and tentative decisions,
are a part of the record and shall include a statement of—

^ *>

5

(A) findings and conclusions, and the reasons or basis
therefor, on all the material issues of fact, law, or
discretion presented on the record; and
(B) the appropriate rule, order, sanction, relief, or
denial thereof, (emphasis added).
The Rehabilitation Act of 1973. 29 U.S.C. § 791, et seq., states in part,
at 29 U.S.C. § 791 (f):
Standards used in determining violation of section
The standards used to determine whether this section has
been violated in a complaint alleging nonaffirmative
action employment discrimination under this section shall
be the standards applied under title I of the Americans
with Disabilities Act of 1990 (42 U.S.C. 12111 et seq.) and
the provisions of sections 501 through 504, and 510,[1] of
the Americans with Disabilities Act of 1990 (42 U.S.C.
12201—12204 and 12210), as such sections relate to
employment.
STATEMENT OF THE CASE
Petitioner Fenyang Stewart petitions the Court for a Writ of
Certiorari reviewing the decision of the U.S. Court of Appeals for the
Fourth Circuit Court affirming the judgment of the Eastern District
Court of Virginia, Alexandria Division (a) dismissing in part, the
amended consolidated complaint in Stewart's consolidated employment
actions, comprising several claims of discrimination related to his
employment with the U.S. Patent and Trademark Office and (b)

V

6

■!

granting Respondents’ joint motion for partial summary judgment on
Stewart’s claim seeking reversal of the final decision of the Merit
Systems Protection Board (MSPB) upholding his removal from his
position as a Patent Examiner.
Reason for Granting the Petition
I.
The Fourth Circuit’s adoption of the District Court’s ruling
that interference claims brought under the Rehabilitation Act are to
be analyzed as retaliation claims using the but-for standard and
McDonnell Douglas burden-shifting framework perpetuates an
irreconcilable conflict in intracircuit law, where only the 1st and 4th
Circuits treat interference claims as retaliation claims, but where
the majority of the other circuits (the 3rd, 7th, 9th, and D.C. Circuits)
agree that Congress intended to provide broad coverage for
interference claims and as such analyzes those claims under a
broader legal framework in accordance with the statutory text.
The Fourth Circuit adopted the district court’s reasoning treating his
interference, coercion, and threat claims as retaliation claims under the
Rehabilitation Act:
First, although Counts XVI, XVII, XVIII, and XIX
are brought under 42 U.S.C. § 12203(b), which
prohibits "[interference, coercion, or intimidation,"
as opposed to 42 U.S.C. § 12203(a), which prohibits
"[retaliation," numerous courts have recognized
that "the elements are the same" under both
provisions. Kerrigan v. Bd. ofEduc. Of Carroll Ctv.,
2015 WL 4591053, at 5. (D. Md. July 28, 2015).
Therefore, these counts will be analyzed in the
same manner as plaintiff's other retaliation claims,
plaintiff's allegations themselves support this
conclusion, as Counts XVI, XVII, XVIII, and XIX
allege that any interference, coercion, or

7

intimidation was in retaliation for his "requesting]
a reasonable accommodation of a transfer to a
previous supervisor." Compl. % 200... Turning to
plaintiff's remaining retaliation claims under the
Civil Rights Act and the Rehabilitation Act, ”[t]o
make out a prima fade claim of retaliation [under
the Civil Rights Act], a plaintiff must show: (1) that
[he or] she engaged in protected activity, (2) that
the employer took a materially adverse action
against [him or) her[,] and (3) there is a causal
connection between the protected activity and the
adverse action." Evans v. Int'l Paper Co., 936 F.3d
183, 195 (4th Cir. 2019)... Defendants argue that
Counts IX, XIII, XIV, XV, XVI, XVII, XVIII, and
XIX should be dismissed because plaintiff has
failed to allege that he engaged in protected
activity, and that Count VII should be dismissed
because plaintiff has failed to allege that there was
a causal relationship between his protected activity
and the adverse action. Plaintiff offers no argument
in
response.
Defendants
arguments
are
persuasive...
...Accordingly, Counts IX, XIII, XIV, XV, XVI, XVII,
XVIII, and XIX will be dismissed for failure to state
a claim upon which relief can be granted.
Stewart v. Ross, l:18-cv-1369 (LMB/TCB) (E.D. Va. Apr. 17, 2020).
Therefore, the Fourth Circuit’s affirmation of the district court’s
decision was made in clear harmful interpretation of applicable law because
42 U.S.C.

12203(b) does not require a causal connection per the

burden-shifting McDonnell Douglas legal framework as does retaliation
claims; not only that, the statutory text is written in a manner to provide

8

broad coverage even to persons without disabilities, and thus cannot be
analyze under the stricter retaliation standard. McDonnell Douglas Corp. v.
Green, 411 U.S. 792, 802 (1973). Indeed, in order to prove retaliation
pursuant to the Rehabilitation Act, an individual must show: engagement in
prior protected activity, including requesting a reasonable accommodation for
one’s own disability; the employer took a materially adverse action against
the employee; and retaliation caused the employer’s action.
Initially, the decision referenced paragraph 200 of Appellant’s
Amended Consolidated Complaint (Compl.), which stated in part:
A reasonable disabled employee in Appellant's position
would feel threatened, intimidated and coerced to attend
the meetings against their will under threat of such
punishment. The intimidation, threats, and coercion
contributed [to] his removal because the Notice of
Removal stated that some of the pre-noon meetings he
attended or didn't attend were a reason in particular why
he was removed from Federal Service.
Compl., f 200.
Thus, the interference alleged was not only based on the denial of
Petitioner’s request for a reasonable accommodation, but was also based on
coercion, intimidation, and threats made by his supervisor of imposition of
disciplinary action if he did not forego his granted reasonable accommodation
(no pre-noon 1-on-l supervisory meetings). The latter allegation is separate
and apart from the denial of the accommodation to be transferred to a prior
identified supervisor with whom he did not experience demeaning treatment

9
under, which is what the district court based its decision on. See
Lovejoy-Wilson v. NOCO Motor Fuel, Ine., 263 F.3d 208, 223 (2d Cir. 2001):
On January 20, 1994, the plaintiff wrote the letter
to NOCO in which, inter alia, she cited the ADA and set
forth her understanding of its requirements, suggesting
several possibilities for accommodating her disability. In
response to this letter, on January 26, 1994, NOCO’s
president wrote the short, sharp letter of rebuke quoted
above. A jury could reasonably find that the letter’s
statement that “[i]f she continue[d] this behavior, [NOCO
would] have no choice but to address [her] behavior
through legal channels,” and that that was NOCO’s “final
position on this matter and it [would] not be entertaining
further communication on th[e] matter” served to
“intimidate” or “threaten” her in the assertion of her right
to make complaints or file charges under the ADA.
Similarly, the statement made by Petitioner’s supervisor that “these
[pre-noon] meetings are mandatory” carried with it a clearly unmistakable
threat of disciplinary action which served to coerce and intimidate Petitioner
into foregoing his granted reasonable accommodation and attend those
several pre-noon meetings despite suffering from breakthrough pain based on
a back injury he had which was the nucleus of his reasonable accommodation
requests. In order to prevent a manifest injustice, the Court should find that
the rescission of a granted accommodation without an individual assessment
that concludes a granted accommodation is no longer reasonable is per se
discrimination under the Rehabiliation Act as a failure to accommodate a
qualified employee with a disability. The panel decision thus relied upon
misstated facts and application of relevant law which was material to the
underlying decision and to the outcome of the appeal, whereby Counts XVI,

10
XVII,

and XVIII

(interference,

coercion,

and threats)

(collectively,

“interference claims”) would not have been dismissed but for said plain
harmful legal, factual, and procedural errors. But for the lower court’s
affirming without question the district court’s imposition of a retaliation
standard onto Petitioner’s interference claims, the case would have been
reversed after fashioning a new legal framework for interference claims that
expands protections beyond the borders of retaliation claims.
As such, the decision as it stands perpetuates an irreconcilable conflict
in intracircuit law, as shown in the following summaries of U.S. Circuit Court
decisions on the subject. It should be noted that although it appears that the
Fourth Circuit has not yet ruled on this issue of first impression, and merely
adopted the district court’s reasoning which is lacking in statutory analysis
and inquiry into Congressional intent as is required when facing such issues.
Unless reversed by the High Court, the position of the district court controls
via the 4th Circuit’s affirmance of the same.

The D.C. Circuit
In Menoken v. Dhillon, 975 F.3d 1, 9 (D.C. Cir., 2020), the D.C.
Circuit held in part:
Our court has not previously addressed the proper
standard for analyzing interference claims under
section 12203(b). We ordered supplemental briefing
from the parties and the court-appointed amicus on
this question, and now conclude that the district
court erred by treating section 12203(b) as an

11
anti-retaliation provision. This conclusion is
compelled by a straightforward reading of the
statute, which includes separate provisions
prohibiting retaliation and interference. Section
12203(a)—titled
“Retaliation”—proscribes
retaliation on the basis of statutorily protected
activity,
while
section
12203(b)—titled
‘Interference, coercion, or intimidation”—prohibits
“coerc[ion],
intimidat[ion],
threat[s],
or
interference] with” an employee in the exercise of
statutorily protected rights. The statute's text and
structure reinforce that retaliation and interference
are distinct protections. It would unnecessarily
render section 12203(b) surplusage if we were to
treat it as nothing more than another prohibition
on retaliation. See, e.g., TRW Inc. v. Andrews, 534
U.S. 19, 31, 122 S.Ct. 441, 151 L.Ed.2d 339 (2001)
(“We are reluctant to treat statutory terms as
surplusage in any setting.” (citation and quotation
marks omitted)).
Menoken v. Dhillon, 975 F.3d 1, 9 (D.C. Cir., 2020).

Here, Menoken, decided by a sister circuit in a jurisdiction in which a
large number of Federal employees work and where a majority of Federal
agencies are located, is highly persuasive because it is based on the plain text
of the statutory text at bar and in compliance with the High Court’s
reasoning in TRW Inc. v. Andrews, 534 U.S. 19, 31, 122 S.Ct. 441, 151
L.Ed.2d 339 (2001), as being “reluctant to treat statutory terms as surplusage
in any setting”. In contrast, the lower courts were rather eager to treat
section 12203(b) as surplusage by clearing announcing and affirming that
"the elements are the same" under both 12203(a) and 12203(b) provisions,
which they clearly are not. Tb be sure, 42 U.S.C. 12203(a) states:

12
No person shall discriminate against any individual
because such individual has opposed any act or practice
made unlawful by this chapter or because such individual
made a charge, testified, assisted, or participated in any
manner in an investigation, proceeding, or hearing under
this chapter.
42 U.S.C. 12203(a).
In contrast, 42 U.S.C. 12203(b) states:
(b) Interference, coercion, or intimidation
It shall be unlawful to coerce, intimidate, threaten, or
interfere with any individual in the exercise or enjoyment
of, or on account of his or her having exercised or enjoyed,
or on account of his or her having aided or encouraged any
other individual in the exercise or enjoyment of, any right
granted or protected by this chapter.
42 U.S.C. 12203(b).
It is strikingly dear that 42 U.S.C. 12203(b) is not a simple copy
and paste of the prior Section 12203(a), and the former section dearly
offers broader protection than the latter section by prohibiting the
intimidation, coercion, or threatening of individuals who may not be
disabled when giving aid to or encouragement of any other individual
in the exercise or enjoyment of, any right granted or protected by that
chapter (the ADA and Rehabilitation Act)
Petitioner pleads that the petition should also be granted in
order for the Court to dedde whether the burden-shifting framework of
McDonnell Douglas applies to Section 12203(b) daims.

Petitioner

argues it does not due to it being too narrow, and lacking full coverage

13
to all persons according to the text of the statute. Instead, a new
broader legal framework should be fashioned that is based on offering
facts that satisfy the applicable textual phrases which would survive a
motion to dismiss, and leaving it for the trier of fact to determine if
controverted material facts supported by the evidence exists at the
summary judgment stage in order to proceed to a trial on the merits.
Having to force a but-for analysis and provide proof of pretext along
with a causal connection at any stage of adjudication for such claims
truncates the broad coverage intended for Section 12203(b) claims.
Such analysis is proper and in alignment with the Congressional
mandate that Federal agencies be a model employer of individuals
with disabilities. It also fosters healthy working environments where
employees can feel free to stand up for and encourage such individuals
in the enjoyment of their rights without suffering coercion,
intimidation, and threats from Agency supervisors or coworkers.
The 7th Circuit, and the 9th Circuit
In Frakes v. Peoria Sch. Dist. No. 150, the 7th Circuit held in part:
While this court has not previously addressed an
interference claim made pursuant to the ADA or
Section 504, we agree with the district court and
the Ninth Circuit that guidance can be found in our
application of the anti-interference provision of the
Fair Housing Act (“FHA”), 42 U.S.C. § 3617; see
Brown u. City of litcson, 336 F.3d 1181, 1191 (9th
Cir. 2003) (applying the FHA interference standard
to an ADA interference claim). Because the ADA

14
anti-interference clause is identical to the
anti-interference clause found in the FHA, compare
42 U.S.C. § 3617 with 42 U.S.C. § 12203(b), we use
the FHA framework to establish the legal standard
for an ADA interference claim. In doing so, we
determine that a plaintiff alleging an ADA
interference claim must demonstrate that: (1) she
engaged in activity statutorily protected by the
ADA; (2) she was engaged in, or aided or
encouraged others in, the exercise or enjoyment of
ADA protected rights; (3) the defendants coerced,
threatened, intimidated, or interfered on account of
her protected activity; and (4) the defendants were
motivated by an intent to discriminate. See Bloch v.
Frischholz, 587 8 F.3d 771, 783 (7th Cir. 2009) (en
banc) (providing the framework for an FHA
interference claim).
Frakes v. Peoria Sch. Dist. No. 150, 872 F.3d 545, 550—51 (7th Cir.
2017).
Here, the 7th and the 9th Circuits’ reasonable analysis and creation of
a legal framework to analyze Section 12203(b) claims that is a strict
departure from retaliation claims is highly persuasive, because it follows the
statutory text and is in alignment with the Congressional mandate as
discussed prior. Petitioner, however, does not agree with the addition of the
proof of intent prong because preponderant evidence of the threat, coercion,
or intimidation carries with it an inherent intention to discriminate which
need not be proved separate and apart from the threats, coercion, or
intimidation allegations themselves. Additional proof would just serve to
block persons such as Petitioner from their day in court and the opportunity

15
for equitable remedies, nominal remedies, and damages, if it was found that a
violation of Section 12203(b) occurred.
The Third Circuit
In Fogleman v. Mercy Hosp., Inc., 283 F.3d 561, 570 (3rd Cir. 2002), the
Third Circuit held in part:
As an alternative basis for his third-party claim Greg also relies
on the second anti-retaliation provision of the ADA, 42 U.S.C. §
12203(b), which reads: It shall be unlawful to coerce, intimidate,
threaten, or interfere with any individual in the exercise or
enjoyment of, or on account of his or her having exercised or
enjoyed, or on account of his or her having aided or encouraged
any other individual in the exercise or enjoyment of, any right
granted or protected by this chapter. We have noted that the
scope of this second anti-retaliation provision of the ADA
“arguably sweeps more broadly” than the first. Mondzelewski v.
Pathmark Stores, Inc. 162 F.3d 778, 789 (3d Cir. 1998). In
particular, unlike the first provision, the text of this provision
does not expressly limit a cause of action to the particular
employee that engaged in protected activity. This provision
contains language similar to that found in section 8(a)(1) of the
NLRA, 29 U.S.C. § 158(a)(1), which makes it an unfair labor
practice for an employer “to interfere with, restrain, or coerce
employees” in exercising their rights guaranteed under the Act.
In Kenrich Petrochemicals, Inc. v. NLRB, 907 F.2d 400 (3d
Cir. 1990) (in banc), we enforced an order of the National Labor
Relations Board that interpreted section 8(a)(1) to prohibit an
employer's retaliation against a supervisory employee (who was
otherwise unprotected by the Act) for protected activity engaged
in by her close relatives. We noted that the firing of a dose
relative could have a “coercive” effect on the employees engaging
in protected activity, id. at 407, instilling “fear that the exerdse
of their rights will give the company a license to inflict harm on
their family.” Id. at 409. Our sister courts of appeals have also
recognized that section 8(a)(1) prohibits the firing of a close
relative of an employee who engages in activity protected by the
NLRA. See, e.g., Tasty Baking Co. v. NLRB, 254 F.3d 114,

16
127-28 (D.C. Cir. 2001); NLRB v. Advertisers Mfg. Co., 823 F.2d
1086, 1088-89 (7th Cir. 1987).
Our interpretations of the NLRA can serve as a useful guide to
interpreting similar language in the ADA, as both are “part of a
wider statutory scheme to protect employees in the workplace
nationwide.” McKennon v. Nashville Banner Pub'g Co., 513
U.S. 352, 357, 115 S.Ct. 879, 130 L.E<L2d 852 (1995). The texts
of section 8(a)(1) of the NLRA and the ADA's second
anti-retaliation provision are essentially similar-each makes it
illegal for an employer to “coerce” or “interfere with” an
employee exercising his rights under the act. In view of this
fact, as well as the similar policies underlying the two
provisions, it seems sensible to hold, as we now do, that Greg
may assert his third-party retaliation claim under this section of
the ADA just as he would be able to do under the NLRA.
Accordingly, we will reverse the District Court's order granting
summary judgment to Mercy to the extent that it was based on
the Court's view that Greg's third-party retaliation claim was
not cognizable under the ADA’s second anti-retaliation
provision.
Fogleman v. Mercy Hosp., Inc., 283 F.3d 561, 570 (3d Cir. 2002).
The Third Circuit’s reasoning is elegant and highly persuasive, and
shows that any overlapping of Section 12203(b) (interference) claims with
retaliation claims is necessary in order to provide the broad coverage
Congress intended. A manifest injustice will occur if sometime in the future
the Fourth Circuit would adopt the broader legal framework for analyzing
interference claims in a published decision, since said decision will not be
retroactive. Petitioner would lose his opportunity to be redressed for
irreparable harm he has suffered due to said interference, threats and
coercion, a violation of his Fifth Amendment right to due process and right of

17
continued Federal employment. Therefore, the Court should grant the
petition, which would give amicus the opportunity to suggest what the
applicable legal framework for such claims are, and an opportunity via oral
argument for clarification of the same after appointment of counsel to argue
on Petitioner’s behalf.
The First Circuit
The only Circuit court in agreement with the Fourth Circuit’s analysis
and affirmance of the district court’s finding that interference claims are to be
analyzed in the exact same manner as retaliation claims are analyzed, is the
First Circuit. Specifically, in Champagne v. Servistar, 138 F.3d 7 (1st Cir.
1998), the 1st Circuit stated and held in part:
As summary judgment has been granted, we review
the facts in the light most favorable to Champagne
and will draw all reasonable inferences in his favor.
See Soileau v. Guilford of Maine, 105 F.3d 12, 13
(1st Cir. 1997). Because the issue of causation as to
the termination of Champagne's employment is
largely dispositive of the case, we focus particularly
on those facts... Champagne says he has suffered
harm from two sources: (1) the termination of his
employment, which he says resulted from
discrimination or retaliation or both, and (2) the
memorandum notifying him he would have to
return to rotating routes or work in the warehouse,
which he says was a threat to withdraw the
accommodation Servistar was obligated to grant
him.
A. Termination and Retaliation
As to the first harm, the district court carefully
parsed Champagne's discrimination and retaliation

18
claims, and concluded that Champagne did not
meet the statutory definition of disabled and that
his evidence of retaliation was insufficient. We take
a shorter route. We have no doubt that Champagne
suffered from a mental impairment, a first step
toward establishing disability under the ADA But
even if Champagne could establish he was disabled
within the meaning of the ADA, his case on
termination fails on the issue of causation.
Champagne has not produced evidence from which
a finder of fact could reasonably find that Servistar
"discharged (him] in whole or in part because of
[his] disability,” Equal Employment Opportunity
Comm'n v. Amego, Inc., 110 F.3d 135, 141 n. 2 (1st
Cir.1997), or that there was a "causal connection
between [his] discharge and the conduct" of filing
an ADA complaint. Soileau, 105 F.3d at 16... To
make out a retaliation claim under the ADA, see 42
U.S.C. § 12203(a), Champagne must "show that he
was engaged in protected conduct, that he was
discharged, and that there was a causal connection
between the discharge and the conduct." Soileau,
105 F.3d at 16... We have no doubt that Champagne
makes out a prima facie case of retaliatory firing.
At issue is whether Champagne’s evidence permits
a fact finder to conclude that the articulated reason
is pretextual... On the evidence, Champagne's
claim does not survive. He relies on part of the
ADA’s anti-retaliation statute, 42 U.S.C. §
12203(b):
It shall be unlawful to coerce, intimidate, threaten,
or interfere with any individual in the exercise or
enjoyment of, or on account of his or her having
exercised or enjoyed, or on account of his or her
having aided or encouraged any other individual in
the exercise or enjoyment of, any right granted or
protected by this chapter.
It is doubtful Champagne has shown that he had
"exercised a right granted or protected by the
ADA." Before he filed his EEOC complaint,
Champagne had not asserted he was disabled

19
within the meaning of the ADA. He certainly never
provided Servistar with any medical evidence from
which a conclusion of disability, as defined in the
ADA, was warranted. That Servistar voluntarily
decided to permit Champagne to avoid
route-rotation for a period of time does not
establish that Champagne was disabled or that
avoidance of route-rotation was a required
reasonable accommodation.
In this context, like the district court, we do not
think the memorandum may be reasonably viewed
as a threat or interference under § 12203(b). Under
the ADA, Servistar has substantial leeway in
defining the essential functions of its truck driving
positions, and it may require its drivers to be able
to perform those functions. See 42 U.S.C. §
12111(8). It is true that other Servistar managers
had not enforced the route-rotation policy strictly or
cross-checked phone records against DOT logs in
the past. But that does not permit the conclusion
that the decision by new managers to enforce
company policy, and to audit for non-compliance, is
a threat or interference with ADA rights. We stress
that the decision of new managers to enforce the
policy was applied uniformly. The district court
properly granted summary judgment in favor of
Servistar on this claim.
The decision of the district court is affirmed.
Champagne v. Servistar, 138 F.3d 7,1-2, 22, 29-33

(1st Cir. 1998)

(emphasis added).
In Champagne, it is clear that the First Circuit treated the appellant’s
12203(b) interference claim as a retaliation claim, analyzed it under the
burden-shifting framework per McDonnell Douglas and required Champagne
to plead and prove causation in order to succeed on his interference claim at

20

the summary judgment stage. Specifically, the 1st Circuit affirmed the lower
court’s granting of the defendant’s motion for summary judgment on that
claim due to a failure to provide controverted facts which showed that but for
defendant’s interference with his exercise of his ADA rights under Section
12203(b) via a threatening memorandum, he would not have suffered the
adverse action of being fired by his employer, Servistar. The 1st Circuit also
affirmed the decision granting summary judgment because Champagne failed
to provide evidence that the reasons given for his termination were false, and
that the real reason he was fired was interference with his participation in
12203(b) activities. Specifically, the First Circuit grafted the requirements of
a successful retaliation claim onto the requirements for a successful
interference claim by substituting the first prong of a normal retaliation
claim covered by the ADA (that he engaged in a protected activity such as
filing an EEO complaint based on disability discrimination), with an
allegation that his ADA rights were interfered with via threats from his
employer to satisfy the first prong of an interference analysis and requiring
Champagne to prove all other prongs in the same manner as he would a
retaliation claim. It should be noted that the ADA’s interference claims 42
U.S.C. § 12203 is incorporated into the Rehabilitation Act per 29 U.S.C. §
791(f).
This method of pleading and proving interference claims via the
retaliation legal framework as held by the First Circuit and found not to be

21
legal error by the Fourth Circuit in the underlying case shrinks the broad
coverage Congress intended when it carefully crafted and debated each word
that comprises Section 12203(b), rendering it a dead letter. But See U.S.
Congressional Record Proceedings and Debates of the 10th Congress 2nd
Session, Vol. 154-part 10 (amendment “makes it absolutely clear that the
ADA is intended to provide broad coverage to protect anyone who faces
discrimination on the basis of disability”). For an application example, the
EEOC has stated the following are examples of 12203(b) claims which neither
not fit inside nor can be resolved within the parameters of a retaliation
framework:
Coercing an individual to relinquish or forgo an
accommodation to which he or she is otherwise
entitled;
Intimidating an applicant from requesting
accommodation for the application process by
indicating that such a request will result in the
applicant not being hired;
Threatening an employee with loss of employment
or other adverse treatment if he does not
"voluntarily" submit to a medical examination or
inquiry that is otherwise prohibited under the
statute;
Issuing a policy or requirement that purports to
limit an employee's rights to invoke ADA
protections (e.g., a fixed leave policy that states "no
exceptions will be made for any reason");
Interfering with a former employee’s right to file an
ADA lawsuit against the former employer by

22

stating that a negative job reference will be given to
prospective employers if the suit is filed; and
Subjecting an employee to unwarranted discipline,
demotion, or other adverse treatment because he
assisted a coworker in requesting reasonable
accommodation.1
In conclusion, since a majority of the Circuit courts that have ruled on the
issue in published decisions (the 3rd, 7th, 9th, and D.C. Circuits) clearly
articulate why interference claims should not be analyzed as discrimination
claims, and are more persuasive than the holding of the published decision of
the First Circuit to the contrary, this petition for a wait of certiori should be
granted in order to resolve the intracircuit conflict. Specifically, the Court
should hold that interference claims are to be analyzed under a wider
framework than retaliation claims and specify what the prongs of the
analysis at the motion to dismiss and summary judgment stages are. Since
many of the 10,000 plus Federal employees live or work in the geographical
region covered by the Fourth Circuit, such a ruling would expand and protect
the rights of thousands of individuals and breathe life into 42 Section
12203(b) as Congress intended. Otherwise, the Fourth Circuit’s adoption of
the District Court’s ruling that interference claims brought under the
Rehabilitation Act are to be analyzed as retaliation claims using the but-for
1 EEOC. Enforcement Guidance on Retaliation and Related Issues. No. 915.004 (August 25,2016) at 19.
Date accessed: 04/07/2021. URL:
https://www.eeoc.gov/Iaws/guidance/retaliation-guidance.cfm

23

standard and McDonnell Douglas burden-shifting framework would violate
Petitioner’s Fifth Amendment property right of continued employment free of
such interference, threats and coercion and his right of due process.
II. Initial MSPB administrative decisions that are based upon the
written submissions by the parties and were made without a hearing
and become final due to a petitioner wishing to avoid the years long
backlog due to lack of a quorum by seeking review in district court,
should be subject to de novo review by the district court based on
the existing violation of the Fifth Amendment’s guarantee of due
process.
After filing an appeal with the MSPB of the removal decision, Petitioner
chose to have the AJ issue the initial decision without a hearing for reasons
related to his disability and his in forma pauperis status at that time as he
was informed by the AJ that he could do so. At no time, however, was he put
on notice by the AJ or any rule promulgated during the proceedings that
forgoing his opportunity to have a hearing would waive his right to a de novo
review of the non-discrimination claims, including the decision to remove him
from his employment as a Patent Examiner with the U.S. Patent &
Trademark Office (USPTO), in Federal Court.
The purpose for the more deferential standard of review by Federal courts of
MSPB final decisions is to avoid duplicative processes and to give deference
to the AJs decisions made at the hearing based upon the demeanor of the
witnesses who give five testimony that are material to the facts in
controversy prior to the issuance of the initial decision. Such matters are left

24

up to the discretion of the AJ, and will only be overturned if the petitioner
can show that such findings were arbitrary and capricious, an abuse of
discretion, or otherwise not in accordance with law; obtained without
procedures required by law, rule, or regulation having been followed; or
unsupported by substantial evidence. Such is not the case with decisions
made on the papers only without a hearing, however. The reviewing Federal
court has the right to determine de novo what the material facts are in that
case because no deference applies since no determinations based upon the
demeanor of the witnesses were made by the prior adjudicator and the
weighing of the evidence can be performed anew based on the Federal court’s
Article III powers granted to them in the Constitution. Marbury v. Madison,
5 U.S. 137, 177 (1803); See also Plaut v. Spendthrift Farm, Ine., 514 U.S. 211,
218-19 (1995) (“[T]he Framers crafted this charter of the judicial department
with an expressed understanding that it gives the Federal Judiciary the
power, not merely to rule on cases, but to decide them, subject to review only
by superior courts in the Article HI hierarchy). Therefore, in order to avoid
the administrative quagmire and receive justice in a swift manner as
conceived by Congress, Stewart let the time period lapse during which he
could have filed a petition for review with the Board and then filed a
complaint in Eastern District Court for Virginia, Alexandria division, seeking
de novo review of the removal decision along with his discrimination claims
and other claims. Indeed, the statutory scheme created by Congress for the

25

adjudication of Federal employees’ removal claims that involved alleged
discrimination was crafted with the intent of bringing about a swift
resolution of such claims and to the have the Federal judiciary be the final
arbiter of justice.
For example, in Petitioner’s first appeal of the dismissal of his claims to the
Fourth Circuit Court of Appeals, Stewart successfully argued that the
180-day waiting period was a mandatory waiting period after which his
claims

before the Agency’s Equal Employment Opportunity (EEO)

subcomponent became vested and could be brought into Federal court.
Stewart v. Iancu, 912 F.3d 693, 700 (4th Cir. 2019) (Holding that the 180-day
statutory waiting period dining the administrative EEO complaint process
after which a Federal employee can bring his claims into Federal court is a
"claims processing" rule that does not impact a district court's jurisdiction
and is not extended via amendments to said administrative complaint).
Just as the statutory 180-day period is a claims processing rule that does not
rob the Federal court of its jurisdiction, the statute prescribing the manner in
which the MSPB reviews claims that were decided without a hearing does not
rob Federal courts of its power of de novo review of MSPB final decisions
upholding the removal of a Federal employee and the non-discrimination
claims if the Federal employee opts out of Board review and goes directly into
Federal court. Specifically, 5 U.S.C. § 557 states in part:

26

This section applies, according to the
provisions thereof, when a hearing is required to be
conducted in accordance with section 556 of this
title.
(c)

When the agency did not preside at the reception of
the evidence, the presiding employee or, in cases
not subject to section 554(d) of this title, an
employee qualified to preside at hearings pursuant
to section 556 of this title, shall initially decide the
case unless the agency requires, either in specific
cases or by general rule, the entire record to be
certified to it for decision. When the presiding
employee makes an initial decision, that decision
then becomes the decision of the agency without
further proceedings unless there is an appeal to, or
review on motion of, the agency within time
provided by rule. On appeal from or review of the
initial decision, the agency has all the powers
which it would have in making the initial decision
except as it may limit the issues on notice or by
rule.
5 U.S.C. § 557.
Since it is clear under 5 U.S.C. § 557 that the Board has the power of
de novo review of all claims brought before it, a Federal employee who wishes
to avoid indeterminate waiting period due to the lack of a quorum should be
given a de novo review upon timely filing of those claims in Federal court in
order to prevent a manifest injustice and in accordance with congressional
intent. The manifest injustice is the violation of the Fifth Amendment’s right
of due process and continued property right of Federal employment caused by
the lack of a quorum and the impracticability involved in waiting over 4 plus
years for the President to nominate three new members of the Board and for

27

Congressional approval of said nominations. For good measure, respectfully
noted, the nomination of three Supreme Court Justices (Hon. Justice
Gorsuch, Hon. Justice Kavanaugh, and Hon. Justice Barrett) has occurred
during the period the MSPB has lacked a quorum and the filing of the instant
petition. The way the system works now would cause a manifest injustice to
occur by making MSPB employees who are not administrative law judges
appointed by that agency the final arbiter of justice, in terms of the power of
de novo review. Yet Congress specifically preserved Federal employees’
Constitutional right of continued Federal employment sans discrimination as
protected by the Fifth Amendment, and it was their intent that only an
Article HI judge or the three-member MSPB panel yield such power. In the
Civil Service Reform Act of 1978 (CSRA), Congress sought to ensure that
agencies could remove poor performers and employees who engage in
misconduct, while protecting the civil service from the harmful effects of
management acting for improper reasons such as discrimination or
retaliation for whistleblowing, per MSPB literature on the subject:
While a legislature can decide whether to grant
property, the Constitution determines the degree of
legal process and safeguards that must be provided
before the Government may take away that
property. The U.S. Supreme Court has repeatedly
held that, when a cause is required to remove a
public employee, due process is necessary to
determine if that cause has been met. Neither
Congress nor the President has the power to ignore
or waive due process. Due process “couples” the preand post-deprivation processes, meaning that the
more robust the post-deprivation process (i.e., a

28

hearing before an impartial adjudicator), the less
robust the process must be before the action occurs.
However, at a minimum, due process includes the
right to: (1) be notified of the Government’s
intentions; and (2) receive a meaningful
opportunity to respond before the action takes
place. Congress has enacted the procedural rules
described above to help ensure that adverse actions
are taken in accordance with the Constitution and
for proper cause. Due process - and the rules that
implement it - are in place for everyone, not only
for the few problem employees who will inevitably
appear in any workforce of more than a million
individuals. Due process is there for the
whistleblower, the employee who belongs to the
“wrong” political party, the reservist whose periods
of military service are inconvenient to the boss, the
scapegoat, and the person who has been misjudged
based on faulty information. Due process is a
constitutional requirement and a small price to pay
to ensure the American people receive a
merit-based civil service rather than a corrupt
spoils system.2
MSPB.
Petitioner is one of the Federal employees as mentioned above who has
been misjudged due to faulty information and thus is entitled to the full
process that is due to him under the Fifth Amendment, including timely de
novo review of the initial decision on the merits. Although the AJ overturned
several specifications composing the reasons for removal that were written by
the USPTO’s deciding official on the removal action, the AJ failed to remand
the decision back to the Agency for further consideration without the
overturned specifications included, since the Agency decision was not based
2 Merit Systems Protection Board. “What is Due Process in Federal Civil Service Employment? A Report
to the President and the Congress of the United States. May 2015.

29

on findings of facts and applicable law per specification but rather a blanket
rubber-stamping of the Notice of Proposed Removal. As such, Petitioner
argued at the lower court that the district court committed harmful legal and
procedural error when it granted the defendants’ joint partial motion to
dismiss/motion for partial summary judgment, without affording petitioner
discovery by barring him from making any such requests, and without de
novo review of all claims before it prior to making the decision. By failing to
apply the de novo standard of review, the district court deprived the
petitioner of the process that was due. The Fourth Circuit affirmed the
district court’s decision for the reasons stated by the district court in a per
curiam opinion discerning no reversible error in the district court’s “thorough
and well-reasoned analysis”, including a finding by the district court that
neither the MSPB nor the EEOC committed reversible error.
However, reversible error did occur because being forced to wait in line
at the MSPB until it has a quorum is a violation of due process due to the
years-long and indeterminable waiting time prior to a decision on the merits
of a Petition for review, and there is no jurisprudence on this issue of first
impression whether final MSPB decisions made on the papers are subject to
de novo review. Petitioner’s foray into federal court was to avail himself of
this impracticable quagmire so he could get the de novo review he deserves in
a timely manner and which is required under Federal common law. Federal
common law states that where no hearing was held and thus the decision was

30

made on the submitted papers only, Petitioner has to right to face his
accusers in a Federal Court via the statutory processes of discovery, and if
applicable, a trial on the merits, in order to preserve his Constitutional rights
of due process pursuant to the Fifth Amendment and prevent a manifest
injustice.
In order to prevent a manifest injustice, where it is clear that the AJ
committed harmful procedural and legal error by failing to remand the case
back to the USPTO for further adjudication on the merits after excluding the
reversed specifications from consideration, the Court should reverse. This
should occur because Petitioner’s Fifth Amendment due process rights were
violated since the original removal decision was tainted with misstatements
about Petitioner’s “misconduct” encapsulated by at least three overturned
specifications (descriptions of incidents that was alleged to have occurred)
which prejudiced the trier of fact at each level to rule against Petitioner via
the supervisor using all deciding officials and adjudicators as his cat’s paw
whereby he knew the specifications that were overturned were false and
made up with the intent to retaliate against Petitioner. Based on a
preponderance of the evidence, it was determined by the AJ that those
specifications did not occur, as set forth in the initial MSPB decision that
then became the Final decision. Petitioner prays the High Court grants the
instant petition and remands the case back to the USPTO for reconsideration
of the removal decision absent the discriminatory specifications.

31
Since Petitioner was deprived of the equal opportunity to undertake
discovery as all other similarly-situated litigants before the district court, and
because such discovery was essential to a de novo review of his claims and to
overcome a motion summary judgment by providing evidence in support of
material facts that controvert the Respondents material facts essential to
resolving the case as a matter of law, the Court should reverse. Since the
lower courts applied the wrong legal standard of review to the MSPB final
Decision, certiorari is required in order to correct this gross legal and
procedural error and to prevent a manifest injustice, that being the violation
of the Fifth Amendment right of due process as it pertains to Petitioner’s
right as a Federal Employee of continued employment. This issue is of
national importance since a decision will provide due process for over a
significant portion of the over three thousand employees who wish to have
their removal decisions, other adverse actions, and non-discrimination claims
decided by a proper Federal court in a timely manner rather than being stuck
in the adjudicative quicksand over at the MSPB. Specifically, the Court could
hold that such an indefinite waiting period violates due process, and could
provide relief (as well as reversal

ok the decision below in Petitioner’s

appeal) by allowing the current former Federal employee-bystanders waiting
in line to be hear at the MSPB the opportunity to cancel their petitions for
review upon notification of the Court’s decision and the opportunity to file a
complaint for de novo review of their claims in the applicable Federal court.

32

III. The Appellate Court’s affirmance of the district court’s failure to
grant petitioner discovery on discrimination claims subject to de
novo review brought after a final decision from the Merit Systems
Protections Board, prior to ruling on a summary judgment motion by
the respondents, violated his Fifth Amendment guarantee of due
process and the right of continued Federal employment.
Prior to Stewart submitting his response to the Defendants’ joint partial
motion to dismiss and motion for partial summary judgment ("the
Defendant’s motion”), the district court issued an order barring Appellant
from filing any more motions. But for this order, Stewart would have filed a
motion for discovery pursuant to rule 56(e) or otherwise prior to or or
adjacent to filing his motion opposing the Defendants’ motion. Appellant had
several cases in that same court and expected the court to issue a standing
order with various tight deadlines in accordance with local rule 16(b), which
states that in all filed civil actions other than reviews of administrative
agency decisions the Court shall schedule an initial pretrial conference to be
conducted in accordance with Fed. R. Civ. P. 16(b). In addition thereto, or in
lieu thereof, not later than sixty (60) days from first appearance or ninety
(90) days after service of the complaint, the Court shall enter an order fixing
the cut-off dates for the respective parties to complete the processes of
discovery, the date for a final pretrial conference and, whenever practicable,
the trial date, and providing for any other administrative or management
matters permitted by Fed. R. Civ. P. 16 or by law generally.

33

Hence, since the majority of Petitioner’s claims were subject to de novo
review as discrimination claims, Ms complaint should have been classified as
a civil action complaint and not a petition for review of an administrative
agency decision. As such, Petitioner waited in good faith for the granting of
discovery to be automatic and granted without request via issuance of the
standing order after the initial conference, hence the name “Rocket Docket”.
Appellant was prejudiced by the lack of discovery after his case was, due to
harmful procedural error, was entered into the system as an administrative
review even though he should have been afforded discovery on Ms
non-disrcrimination claims as explained above as well as the discrimination
claims. But for the constructive dernal of discovery by the district court,
Petitioner would have deposed the responsible management officials who he
alleged subjected him to discrimination and discovered unknown facts to
support all of his claims via that process. Discovery at the MSPB before an
AJ issues an rnitial decision is not adequate because it is not based on the
Federal Rules of Civil Procedure and because of that, Petitioner was
subjected to a Constitutional deprivation of Ms right of due process, liberty,
and Ms property right of continued employment inherent with a de novo
review of Ms claims since he was not allowed to move to depose his accusers.
But for said denial, Petitioner would have deposed the deciding officials who
may have discriminated or interfered with Ms rights under all causes of
action in order to determine the truth of the matter. Since discovery is a key

34

element to de novo review, the failure to allow Petitioner discovery at the very
least on his claims of discrimination was a violation of due process protected
by the 5th Amendment. Indeed, the petition should be granted in order to
ensure the right of all Federal employees to full discovery of their
discrimination claims after a Final decision is issued by the MSPB and their
cases are filed in Federal court, and for full discovery on their
non-discrimination claims that were decided without a hearing by the MSPB
as in Petitioner's case.
IV. The lower court’s affirmance of the District Court’s and the
MSPB’s reliance on outdated EEOC guidance from 2002 that a
transfer of a Federal employee to a new supervisor is not a form of
reasonable accommodation affects the rights of all employees with
psychiatric disabilities and is a violation of the Rehabilitation Act
and their Fifth Amendment property right of continued Federal
employments absent disability discrimination.
In the MSPB’s final decision, the Board stated:
The Board has long held that an inability to work for a
particular supervisor or in a particular position does not
constitute a disability under the Rehabilitation Act
because it is not a barrier to employment and does not
foreclose an employee generally from his line of work.
Sublette, 68 M.S.P.R. at 86-88 (1995). The Board’s
position is consistent with the EEOC Enforcement
Guidance on Reasonable Accommodation and Undue
Hardship Under the Americans with Disabilities Act, No.
915-002, which stated that the request to be reassigned to
a different supervisor is not considered a form of
reasonable accommodation. I find the appellant’s
argument that the EEOC overruled its decision
unpersuasive, as the EEO policy and cases cited by the
appellant refer to reassignments to vacant positions when

35

an employee is no longer able to perform a current job. See
https://www.eeoc.gov/laws/types/intellectual_disabilitie
s.cfm. Here, the appellant clearly requested a different
supervisor, and not a different position. See AF, Tab 14 at
16 - 32. In addition, the agency considered the request for
a new supervisor, but determined it not to be a reasonable
accommodation. Id. at 7. In making his decision, Mr.
Harvey said, “even if the agency were to consider granting
Mr. Stewart a reassignment to a different supervisor,
there is no indication that the requested accommodation
would be effective.” Id. Accordingly, the appellant’s
request for a new supervisor was properly denied.
MSPB final decision, Stewart v. Dep’t of Commerce (2017).
However, the guidance that the Board cites is from 1995 and 2002,
before the ADAA Amendments Act of 2008 became law which expanded the
ADA and provided broader protections to qualified employees with
disabilities. Petitioner dutifully cited the new sources in his initial and
amended appeals, and throughout the appeals process to no avail. Petitioner
referenced JAN accommodation network’s advice, which the EEOC endorses,
which states that a transfer to a different supervisor is a form of reasonable
accommodation for a qualified employee with PTSD whose current supervisor
is a trigger of the condition via panic attacks and feelings of intense fear:
It is undisputed that the Agency EEOD office received on Dec. 17,
2015, Appellant’s submission of Dr. Welsing’s physician’s statement, and his
argument in support of granting of the RA request, a statement from Job
Accommodation Network which stated in part:
JAN also receives questions about reassigning an
employee to a vacant position if changing supervisory

n

36
methods is not effective. For example, an employee with
an anxiety disorder had anxiety attacks that were
triggered by any interaction with the current supervisor
because of their past relationship. It was not hostile or
harassing, just a bad relationship for the person’s anxiety.
The employer asked if reassignment must be considered
as an accommodation in this type of situation. This is a
challenging situation because how does the employer
know that a similar situation will not develop between the
employee and a different supervisor? The EEOC has
expressed that, under most circumstances, the ADA
would not require an employer to reassign an employee to
a different position due to a poor relationship with a
supervisor. Let’s look at this situation from another
perspective, where an employee maybe was only having
problems with one supervisor, for example someone who
has PTSD as a result of being assaulted and her current
supervisor reminds her of the attacker. In this situation,
it is not a relational or supervisory situation, but rather a
PTSD trigger for the employee. EEOC has stated that this
may be one of the limited situations in which an employer
should consider reassignment when an employee cannot
work with a specific supervisor. This is because a change
in supervisory methods will not be effective in this
situation and there may not be any other accommodation
that would work other than reassigning the employee to a
job with a different supervisor”.3
3 Saab, Trade D. “1- Changing a Supervisor as an Accommodation under the ADA,” Job
Accommodation Network(JAN) E-News, Vol. 11, Issue 2, Second Quarter, 2013.
Accessed Nov. 20, 2015.
url: https://askjan.org/ENews/2013/Enews-Vll-I2.htm#l

'*

37

Therefore, applying the Job Accommodation Network’s wisdom to the
instant petition, a reasonable inference should have been made by the lower
courts and tribunals that a transfer of petitioner to a prior supervisor with
whom petitioner did not experience symptoms of PTSD (panic attacks,
shaking, etc.) was proper. Wherein the Agency’s failure to accommodate
petitioner’s PTSD disability related to all of the specifications, the Court
must reverse the lower court’s decision and remand for further proceedings.
The failure to do so would continue to allow discrimination on the basis of
disability to occure whereby biased supervisors are allowed to stereotype
qualified disabled employees as violent based on uncontrollable attributes of
their disability, such as shaking and/ore breathing rapidly (Seizure disorder,
panic attack disorder, PTSD) and even speaking out of turn (Turrets
syndrome) by accusing qualified employees of violating the Agency’s
overbroad workplace violence policy.

Specifically, the USPTO Workplace

Violence Policy prohibits aggressive or hostile behavior that creates a
reasonable fear of injury to another person. Tab 4e, Agency file MSPB record.
It further provides that threats, threatening conduct, or any other acts of
aggression or violence in the workplace will not be tolerated. Id. Any
employee determined to have committed such acts may be removed from the
premises and will be subject to disciplinary action, up to and including
termination from Federal Service, and may also be subject to prosecution. Id.
Whereby involuntary attributes of Stewart’s behavior, panic attacks described

38

as shaking and breathing in an angry manner, was determined to have
violated the Agency’s workplace violence policy, the policy should be struck
down in order to prevent a manifest injustice via the continued
discrimination and removal of qualified employees based on their disabilities
without performing Metz analysis:

Whether an employee’s actions or words actually
constitute a threat is an issue that is frequently raised. In
Metz v. Department of the Treasury, 780 F.2d 1001, 1004
(Fed. Cir. 1986), the Federal Circuit held that in deciding
whether statements constitute threats, the Board is to
apply the reasonable person criterion, considering the
listeners’ reactions and apprehensions, the wording of the
statements, the speaker’s intent, and the attendant
circumstances. It is important to remember that, as with
all charges, an agency must prove all of the elements of
its charge, but that it may choose from any number of
possible charges for the same act of misconduct.
By alleging Petitioner committed workplace violence, the Agency
upgraded the charges from misconduct to “making threats that violated the
Agency’s workplace violence policy”, which required a Metz analysis by the
Board before sustaining the removal. Since the AJ failed to perform a Metz
analysis, and in order to prevent a manifest injustice, the Court should grant
the petition and strike down all workplace violence policies that ensnare the

39
Federal employee with a disability based on involuntary attributes of their
disability and not actual threats or words constituting a threat.
CONCLUSION
For the foregoing reasons, the instant petition for a writ of certiorari
should be granted.
Respectfully submitted on this 25th day of May, 2021,

Fenyang A. Stewart
5834C N. Kings Highway
Unit 4221
Alexandria, YA 22303
(757) 506-4579
fetewart2@gmail.com
Petitioner, Pro Se

